No. 20-1305
In the

Supreme Court of the United States
__________________

DOUGLAS J. HOLDINGS, INC., ET AL.,
Petitioners,
v.
JOY EBERLINE, ET AL.,
Respondents.
__________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

__________________
MOTION FOR LEAVE TO FILE AMICUS BRIEF
AND BRIEF OF AMICUS CURIAE AMERICAN
ASSOCIATION OF COSMETOLOGY SCHOOLS
IN SUPPORT OF PETITIONERS
__________________
EDWARD CRAMP
BRYCE YOUNG
DUANE MORRIS LLP
750 B Street,
Suite 2900
San Diego, CA 92101-4681

ROBERT M. PALUMBOS
Counsel of Record
DUANE MORRIS LLP
30 South 17th Street
Philadelphia, PA 19103-4196
(215) 979-1111
rmpalumbos@duanemorris.com

Counsel for Amicus Curiae

April 19, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
MOTION FOR LEAVE
Pursuant to Rule 37.2(b) of the Rules of this Court,
the American Association of Cosmetology Schools
(AACS) moves for leave to file the attached Brief
Amicus Curiae in support of the Petition for Writ of
Certiorari. AACS provided timely notice of its intention
to file the attached brief under Sup. Ct. R. 37.2(a).
Counsel for Petitioners consented to the filing of the
attached brief, but counsel for Respondents stated that
they do not consent. No person or entity other than
AACS, its members, and its counsel have made a
monetary contribution to the preparation or submission
of the attached brief. In particular, although certain
Petitioners are dues-paying members of AACS, no
Petitioner has contributed directly to the financing of
this brief.
AACS is a nearly 100-year-old nonprofit
organization that is dedicated to educating and
advancing millions of students into the beauty and
wellness industry. AACS’s membership includes
cosmetology, skin, nail, barbering, and massage
schools, and currently represents approximately 600
schools across the nation. AACS estimates that
cosmetology programs—both AACS member schools
and non-member institutions—educate nearly 200,000
students annually. The overwhelming majority of
AACS members are small, single location schools
owned by families.
AACS, its members, and cosmetology schools across
the country have a strong interest in this case. The
Sixth Circuit’s decision has created a circuit split with
the Second, Seventh, and Ninth Circuits on the

ii
identical issue of how to determine whether a student
practicing hands-on skills in a clinic classroom setting
is an employee of a school pursuant to the Fair Labor
Standards Act. That circuit split has thrown into doubt
decades of jurisprudence on which AACS’s members
and other schools have relied in developing and
implementing curricula that incorporates significant
experiential learning. The practical, hands-on
education that cosmetology and other vocational
schools provide overwhelmingly benefits students, and
is instrumental in preparing them to pass licensure
examinations and gain/keep employment. Moreover,
the curricula is the product of years of academic
expertise developed by these schools in conjunction
with employers, educators, and other experts, as well
as the demands of extensive government regulation
and accreditor oversight. By calling into question
whether the curricula implemented by these schools
create an employment relationship with students
across the country, the Sixth Circuit’s decision casts
into doubt the continued viability of this invaluable
educational model for students.
The test announced by the Sixth Circuit requires
courts to analyze piecemeal aspects of an educational
task and to weigh the educational value of that task
against that of any tangential benefit gained by the
school from that task. This approach will lead to
unpredictable litigation results and dramatically
increase the risk of inconsistent conclusions about what
constitutes an employment relationship in the
educational context. In response, cosmetology schools
and other schools will be forced to limit experiential
learning opportunities for students that schools and

iii
regulators have determined is both valuable and
necessary. Given the strong interest that the members
of AACS have in the resolution of the issue raised by
this case, AACS respectfully requests this Court grant
leave to file the attached brief.
WHEREFORE this Court should grant AACS’s
motion for leave to file the attached Brief Amicus
Curiae in Support of Petitioners.
Respectfully submitted,
EDWARD CRAMP
BRYCE YOUNG
DUANE MORRIS LLP
750 B Street,
Suite 2900
San Diego, CA 92101-4681

ROBERT M. PALUMBOS
Counsel of Record
DUANE MORRIS LLP
30 South 17th Street
Philadelphia, PA 19103-4196
(215) 979-1111
rmpalumbos@duanemorris.com

Counsel for Amicus Curiae

iv
TABLE OF CONTENTS
MOTION FOR LEAVE . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . v
INTEREST OF THE AMICUS CURIAE . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.

The Court Should Grant Certiorari to
Confirm the Proper Analysis for Assessing
Whether an Employment Relationship Exists
in a Highly Regulated, Educational
Environment . . . . . . . . . . . . . . . . . . . . . . . . . . 5
A. Governing regulations, accreditor
requirements, and employer demands all
require that cosmetology schools teach
practical skills through clinic classrooms . . 6
B. Before this case, every court to apply the
“primary beneficiary test” has confirmed
that clinic classroom experience is
invaluable to students and imposes
financial burdens on schools . . . . . . . . . . 11

II.

The Sixth Circuit Departed from this Court’s
Longstanding Mandate that Courts Should
Defer to a School’s Academic Decisions . . . . 16

III.

The Sixth Circuit’s Unworkable Standard
Will Impact All Schools, Not Just
Cosmetology Schools . . . . . . . . . . . . . . . . . . . 18

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

v
TABLE OF AUTHORITIES
CASES
Alexander v. Univ. of Mich.-Flint,
509 F.Supp. 627 (E.D. Mich. 1980) . . . . . . . . . . 20
Atkins v. Capri Training Ctr., Inc.,
2:13-cv-6820, 2014 WL 4930906
(D.N.J. Oct. 1, 2014) . . . . . . . . . . . . . . . . . . . . . . 14
Benjamin v. B&H Educ., Inc.,
13-cv-4993, 2015 WL 6164891
(N.D. Cal. Oct. 16, 2015). . . . . . . . . . . . . . . . 13, 14
Benjamin v. B&H Educ., Inc.,
877 F.3d 1139 (9th Cir. 2017). . . . . . . . . . . . . . . 15
Board of Curators, Univ. of Mo. v. Horowitz,
435 U.S. 78 (1978). . . . . . . . . . . . . . . . . . . . . . . . 16
Doherty v. S. Coll. of Optometry,
862 F.2d 570 (6th Cir. 1988). . . . . . . . . . . . . . . . 16
Eberline v. Douglas J. Holdings, Inc.,
982 F.3d 1006 (6th Cir. 2020). . . . . . . . 3, 8, 14, 17
Gerard v. John Paul Mitchell Systems,
14-cv-4999. 2016 WL 4479987
(C.D. Cal. Aug. 22. 2016) . . . . . . . . . . . . . . . . . . 12
Hollins v. Regency Corp.,
144 F.Supp.3d 990 (N.D. Ill. 2015) . . . . . . . . . . 14
Hollins v. Regency Corp.,
867 F.3d 830 (7th Cir. 2017). . . . . . . . . . . . . . . . 15

vi
Jochim v. Jean Madeline Educ. Ctr. of
Cosmetology, Inc.,
98 F.Supp.3d 750 (E.D. PA. 2015) . . . . . . . . 13, 14
Kaltenberger v. Ohio Coll. of Podiatric Med.,
162 F.3d 432 (6th Cir. 1998). . . . . . . . . . . . . . . . 17
Kissinger v. Bd. of Trustees of Ohio State Univ.,
Coll. of Vet. Med., 5 F.3d 177 (6th Cir. 1993) . . 17
Mootoor v. E. Ky. Univ.,
5:18-cv-645, 2020 WL 5633847
(E.D. Ky. Sept. 20, 2020), appeal docketed,
Number 20-6166 (6th Cir. Oct. 13, 2020) . . . . . 17
Nesbitt v. FCNH, Inc.,
908 F.3d 643 (10th Cir. 2018). . . . . . . . . . . . . . . 15
Ortega v. Denver Inst. LLC.,
14-cv-1351, 2015 WL 4576976
(D. Colo. July 30, 2015) . . . . . . . . . . . . . 12, 13, 14
Regents of University of Mich. v. Ewing,
474 U.S. 214 (1985). . . . . . . . . . . . . . . . . . . . . . . 16
Velarde v. GW GJ, Inc.,
914 F.3d 779 (2d Cir. 2019) . . . . . . . . . . . . . . . . 15
Walling v. Portland Terminal Company,
330 U.S. 148 (1947). . . . . . . . . . . . . . . . . . . . . . . . 3
Ward v. Members of Bd. Control of
E. Mich. Univ.,
700 F.Supp.2d 803 (E.D. Mich. 2010) . . . . . . . . 17
STATUTES
20 U.S.C. § 1001 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

vii
Mich. Comp. Laws §§ 333.16101–.18838. . . . . . . . . 20
Mich. Comp. Laws §§ 339.101–.2677. . . . . . . . . . . . 20
Mich. Comp. Laws § 339.1203(1) . . . . . . . . . . . . . . . . 8
Mich. Comp. Laws § 339.1203a(1) . . . . . . . . . . . . . . . 7
Mich. Comp. Laws § 339.1203b . . . . . . . . . . . . . . . . . 7
Mich. Comp. Laws § 339.1207 . . . . . . . . . . . . . . . . . . 7
REGULATIONS AND CODES
29 C.F.R. Part 541 . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Mich. Admin. Code. R. 338.10306 – .10309 . . . . . . . 21
Mich. Admin. Code. R. 338.1222 . . . . . . . . . . . . . . . 21
Mich. Admin. Code. R. 338.1753 . . . . . . . . . . . . . . . 21
Mich. Admin. Code. R. 338.2139 . . . . . . . . . . . . . . . . 8
Mich. Admin. Code. R. 338.2161 . . . . . . . . . . . . . . 7, 8
Mich. Admin. Code. R. 338.2171(2)(b) . . . . . . . . . . . . 8
Mich. Admin. Code. R. 338.2173 . . . . . . . . . . . . . . . . 8
Mich. Admin. Code. R. 338.4978 . . . . . . . . . . . . . . . 21
Mich. Admin. Code. R. 338.5 . . . . . . . . . . . . . . . . . . 21
Mich. Admin. Code. R. 338.722 . . . . . . . . . . . . . . . . 21
Mich. Admin. Code. R. 339.6047 . . . . . . . . . . . . . . . 21
Mich. Admin. Code. R. 339.15202 . . . . . . . . . . . . . . 21

viii
OTHER AUTHORITIES
Dep’t of Labor, Fact Sheet #17S: Higher Education
Institutions and Overtime Pay Under the FLSA,
available at https://www.dol.gov/sites/
dolgov/files/ WHD/legacy/files/whdfs17s.pdf (last
accessed April 14, 2021) . . . . . . . . . . . . . . . . . . . 20
NACCAS, Standard VI–Curriculum, available at
http://naccas.org/Standards (last accessed April
14, 2021) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
U.S. Dep’t of Edu., College Scorecard, available at
https://collegescorecard.ed.gov/ (last accessed
April 14, 2021). . . . . . . . . . . . . . . . . . . . . . . . . . . 11
U.S. Dep’t of Ed., Gainful Employment Information,
available at https://studentaid.gov/data-center/
school/ge (last accessed April 14, 2021) . . . . . . . 10

1
The American Association of Cosmetology Schools
submits this brief in support of the Petition for a Writ
of Certiorari.1
INTEREST OF AMICUS CURIAE
American Association of Cosmetology Schools
(AACS) is a nearly 100-year-old nonprofit organization
that has dedicated itself to educating and advancing
millions of students into the beauty and wellness
industry. AACS’s membership includes cosmetology,
skin, nail, barbering, and massage schools, and
currently represents approximately 600 schools across
the nation. AACS estimates that cosmetology
programs—both AACS member schools and nonmember institutions—educate nearly 200,000 students
annually. The overwhelming majority of AACS
members are small, single location schools owned by
families.
AACS and cosmetology schools across the country
have a strong interest in this case. The Sixth Circuit’s
departure from this Court’s jurisprudence creates a
circuit split with the Second, Seventh, and Ninth
Circuits on the identical issue of how to determine
whether a student is an employee of a school pursuant
1

Pursuant to Sup. Ct. R. 37.2(a), amicus curiae provided timely
notice of its intention to file this brief. Petitioners consented to the
filing of this brief, but Respondents did not. Counsel for amicus
curiae authored this brief in whole. No person or entity other than
amicus curiae, its members or counsel, made a monetary
contribution to the preparation or submission of this brief. In
particular, although certain Petitioners are dues-paying members
of AACS, no Petitioner has contributed directly to the financing of
this brief.

2
to the Fair Labor Standards Act. In so departing, the
Sixth Circuit announced a new test that requires courts
to analyze piecemeal aspects of an educational task and
weigh the educational value of that task against that of
any tangential benefit gained by the school from that
task. Such an analysis abandons this Court’s directive
to determine the economic reality of the situation by
determining the primary beneficiary of the relationship
as a whole. Moreover, the new rule fails to give due
deference to academic decisions of schools. And it will
lead to unpredictable and inconsistent conclusions as to
what constitutes an employment relationship,
including situations where the employment
relationship may vacillate minute-by-minute or be
based on subjective factors. Finally, this new rule
subjects all schools (public, private, non-profit, forprofit, graduate, etc.), to uncertain legal risk with
devastating class-action costs of defense and possible
liability.
AACS respectfully requests this Court grant the
Petition for Writ of Certiorari and direct the Sixth
Circuit to follow its sister circuits in holding that the
economic reality test requires analyzing the totality of
the circumstances to determine which party is the
primary beneficiary of the relationship as a whole, and
not on a piecemeal basis analyzed in a vacuum.
SUMMARY OF ARGUMENT
Until this case, courts have recognized that the
economic reality test used to determine whether a
person is an employee under the FLSA requires
analyzing the totality of the circumstances to ascertain
whether the student or the school is the primary

3
beneficiary of the relationship. By looking at the
totality of the circumstances, this test accounts for the
overall educational nature of the relationship,
including that some tasks may be redundant with what
the students already know or are repetitive of lessons
learned. It further recognizes that courts defer to
schools—the experts on what students need to
learn—about how they set and implement their
curriculum. That test has worked since this Court’s
decision in Walling v. Portland Terminal Co., 330 U.S.
148 (1947). Schools and students understood the
boundaries of the academic relationship, and schools
were able to implement curriculum to provide students
with the invaluable experiential learning they need for
licensure and employment without the schools running
afoul of the FLSA.
The Sixth Circuit now seeks to overturn that
system. In breaking from this Court, the Second,
Seventh, and Ninth Circuit Courts of Appeal, and
numerous district courts, the Sixth Circuit espouses a
new test that disregards the totality of the
circumstances as well as the economic realities of the
relationship. Instead, its new rule analyzes piecemeal
and in a vacuum only whether the student or the
employee is the primary beneficiary of a particular
task. As the Sixth Circuit held, “when a plaintiff
asserts an entitlement to compensation based only on
a portion of the work performed in the course of an
educational relationship, courts should apply the
primary-beneficiary test . . . only to that part of the
relationship, not to the broader relationship as a
whole.” Eberline v. Douglas J. Holdings, Inc., 982 F.3d
1006, 1014 (6th Cir. 2020).

4
The Sixth Circuit’s new rule is unworkable in the
academic context because it ignores the economic
reality of the situation: these are students practicing
required hands-on skills as part of a training program
for a licensed profession. Analyzing tasks out of that
context is meaningless—they are being done as part of
the overall training, aimed at guiding students to
graduation, licensure, and employment. The tasks
would not exist but for the learning environment, and
the two cannot be separated.
Relatedly, the Sixth Circuit’s new approach
substitutes its own opinion of curriculum over that of
the schools’ judgment. That result not only contravenes
established case law, it also ignores that schools are
best qualified to determine what needs to be taught to
students. Schools are run by and employ individuals
who know firsthand the demands and expectations of
employers. They are guided by community, employer,
and other stakeholder input. They understand the
licensure examination topics, and the legal
requirements that apply to their graduates and their
chosen professions. It is impermissible and unwise to
supplant the expert academic decisions of schools with
that of the judiciary.
Finally, the consequences of this new rule now
threaten the viability of the experiential learning
system for all schools (not just cosmetology or
vocational schools). The FLSA applies to cosmetology
schools, community colleges, traditional schools, and
graduate programs. As such, any of those students
could bring class action lawsuits against their schools,
alleging that cherry-picked, piecemeal aspects of their

5
education benefited the school more than the student,
and that they (and all others like them) should be paid
for that benefit. The financial risk from litigation costs
and damages exposure is potentially devastating. To
minimize their litigation exposure, schools and
externship/clinical sites will be forced to eliminate any
task or feature of an experiential learning environment
that could potentially be construed as employment. As
such, students will be deprived of meaningful and
otherwise unavailable practical skills and lessons
demanded by employers and required to pass licensure
examinations.
For the benefit of students and schools everywhere,
AACS respectfully requests this Court grant the
Petition for Writ of Certiorari and confirm that the
economic reality test of the FLSA still requires
analyzing the totality of the circumstances to
determine the primary beneficiary of the entire
relationship.
ARGUMENT
I.

The Court Should Grant Certiorari to
Confirm the Proper Analysis for Assessing
Whether an Employment Relationship
Exists in a Highly Regulated, Educational
Environment.

The Sixth Circuit’s decision permits students to
claim they were employees based on performance of
isolated and piecemeal aspects of their clinic classroom
education. Such a rule ignores entirely the nature and
purpose of clinic classrooms, in large part because it
fails to understand the duty and expertise cosmetology

6
schools have in preparing their students for licensure
and employment. This Court should grant the petition
to reaffirm that an appropriate analysis of whether a
student, intern, or trainee is an employee must be
performed within the context of the broader
educational relationship, especially given the
regulatorily required instructional methods and
content for vocational schools.
A. Governing regulations, accreditor
requirements, and employer demands
all require that cosmetology schools
teach practical skills through clinic
classrooms.
The analysis adopted by the Sixth Circuit overlooks
a fundamental fact about how cosmetology schools
operate: Everything these schools require their
students to do is related to—if not expressly demanded
by—numerous layers of regulatory, accreditor, and
government oversight, as well as the demands and
expectations of employers. The application of the
“primary beneficiary analysis” must be performed
within the context of clinic classroom work and the
reason for those tasks—that is, it must be based on the
totality of the circumstances.
1. Cosmetologists and cosmetology schools across
the country operate in highly regulated environments
that require significant “hands-on” education in, among
other things, personal hygiene, salon management, and
salon sanitation. The regulatory framework that
applies in this case fairly represents the typical
regulatory environment across the country.

7
Michigan prohibits the performance of “any form of
cosmetology services, with or without compensation, on
any individual other than a member of his or her
immediate family without a license.” Mich. Comp.
Laws § 339.1203a(1). To be licensed by the Michigan
Department of Licensing and Regulatory Affairs
(LARA), a person must complete either a 1,500-hour
course of study in a school of cosmetology or a two-year
apprenticeship at a licensed cosmetology
establishment, and pass a licensing examination. Id. at
§ 1207. LARA similarly licenses and oversees
cosmetology schools. Id. at § 1203b.
Of the required 1,500 hours, state regulations
require schools to provide 425 hours in a lecture setting
(“theory hours”), 965 hours in a hands-on clinic
classroom (“practical hours”), and 110 hours in either
setting at the school’s discretion. Mich. Admin. Code. R.
338.2161. These same regulations further delineate
how many hours must be spent on particular topics of
instruction. As relevant here, schools are required to
provide 90 theory hours and 40 practical hours on
sanitation/patron protection laws and rules, personal
hygiene, salon management, and mechanical and
electrical equipment safety. Id. Within those 130 hours,
students must perform at least 585 practical
applications of these skills (e.g., sanitizing scissors,
sanitizing workstation, disposing of dirty towels). Id.
Repetition of sanitation skills is intended to make
those skills automatic and habitual, thereby protecting
the public and the cosmetologist from bloodborne and
airborne contagions. Similarly, schools must provide 20
theory hours and 10 practical hours on occupational
safety and health. Id.

8
This required curriculum prepares students for the
licensure examination, which consists of a multiplechoice section and a hands-on section. Mich. Admin.
Code R. 338.2139, .2161. At least 25% of the multiplechoice section focuses on topics including infection
control, client protection, disinfectants, bacteria, virus,
fungus, decontamination, as well as Michigan’s
cosmetology regulations, licensing requirements, and
salon-management responsibilities. See Eberline, 982
F.3d at 1019 (Batchelder, J., concurring in part)
(explaining testing process and citing to appellate
record for same). Moreover, the hands-on portion of the
exam scores students on whether they disinfected their
workstations before and after servicing a client, and if
they practiced proper safety criteria during every
cosmetic service (including changing towels and
cleaning spills). Id.
Sanitation is taught by cosmetology schools and
heavily tested on the licensure examination to protect
public health, and cosmetologists can be fined or have
their license revoked for failing to follow prescribed
practices. LARA requires licensed cosmetologists to
adopt and follow standards necessary “to prevent the
spreading of an infectious or contagious disease.” Mich.
Comp. Laws § 339.1203(1). LARA further demands
cosmetologists follow state and local health regulations,
and for salons to be “clean, safe, and sanitary at all
times.” Mich. Admin. Code R. 338.2171(2)(b) and
338.2173. Hair clippings must be disposed of after
servicing every patron; fresh towels must be supplied
for every service; and sinks, tubs, and shampoo bowls
must be “thoroughly cleanse[d] and sanitize[d] . . .
immediately after each use.” Id. Student training in

9
these areas is purposefully repetitive in order to create
the automatic habits required to protect public health
and ensure compliance with LARA’s regulations
governing the same.
2. In addition to satisfying requirements under
state law, cosmetology schools must also be accredited
in order to participate in Title IV federal fund
programs (e.g., federal loans and grants for students).
While schools are not required to participate in federal
funding, the vast majority of schools choose to
participate so their students can obtain federal
financial aid. Every such school is under accrediting
oversight by one of twenty-six institutional accreditors
approved by the U.S. Department of Education. Each
accreditor is an autonomous, independent entity that
performs initial and then recurring evaluations of each
school to ensure the school’s facilities, faculty,
curriculum, student support services, and student
outcomes meet a set of minimum standards.
Accreditors require that schools teach students the
skills they need to work as cosmetologists, including
sanitation and business management skills. Like more
than 1,300 schools nationwide, Petitioners’ schools are
accredited by the National Accrediting Commission of
Career Arts and Sciences (NACCAS). To be accredited,
NACCAS ensures that a school’s curriculum “compl[ies]
with the applicable regulatory agency curriculum
requirements.”2 Each program must also provide
“instruction on the regulations governing the scope of

2

NACCAS, Standard VI–Curriculum, available
http://naccas.org/Standards (last accessed April 14, 2021).

at

10
practice for which students are training.” Id. And it
must provide “supervised instruction in the applicable
skills and competencies” required to work in the chosen
profession. Id.
3. A school’s survival depends on its graduates’
ability to gain and keep employment after graduation.
To achieve that outcome, schools must teach practical
skills that will be required for employment, including
all aspects of being a successful cosmetologist (e.g.,
proficiency in all hair services, sanitation, product
sales) and operating a business (e.g., bookkeeping,
reception, inventory).
In addition, the Higher Education Act limits
eligibility to participate in federal funding programs to
those institutions preparing students for “gainful
employment in a recognized occupation.” 20 U.S.C.
§ 1001. To determine if such an outcome is being
achieved, the U.S. Department of Education requires
schools to disclose enumerated debt-to-earnings rates
for each program.3 These rates include the annual
earnings rate and the discretionary income rate, which
measure “the ability of program completers to
reasonably repay the educational debt incurred for
their attendance in the program.” Id. Moreover, schools
must disclose this data to prospective students and it

3

See U.S. Dep’t of Ed., Gainful Employment Information, available
at https://studentaid.gov/data-center/school/ge (last accessed April
14, 2021).

11
is publicly available on the Department of Education’s
College Scorecard website.4
B. Before this case, every court to apply
the “primary beneficiary test” has
confirmed that clinic classroom
experience is invaluable to students and
imposes financial burdens on schools.
Against this regulatory, accreditation, and outcomeoriented backdrop, every court has recognized that
clinic classrooms at cosmetology schools exist for the
primary benefit of students—until the Sixth Circuit in
this case.
Clinic classrooms instill in students the habits
required for success, including sanitation skills.
Students learn the repetitive and unceasing nature of
properly sweeping and sanitizing the entire
workstation before each hair service. Students asked to
wash used towels, refill product dispensers, sweep, and
clean around the stations so “you could eat off” of the
surfaces are performing tasks that will be required by
employers. Moreover, all of these skills flow from the
students practicing cosmetology on guests. The tasks
would not exist but for the students practicing those
skills.
Similarly, in the clinic classroom, students learn
critical business skills, such as how to discuss
particular products with guests and how to sell those
products. Those skills are important because many
4

See U.S. Dep’t of Edu., College Scorecard, available at
https://collegescorecard.ed.gov/ (last accessed April 14, 2021).

12
practicing cosmetologists rely on commissions from
product sales as a supplement to their wages. Many
students become self-employed or start small
businesses as independent salon owners. The clinic
classroom also teaches students how to run a business
by greeting guests, hosting guests with beverage and
food, booking follow-up appointments, tracking and
stocking inventory, and bookkeeping. Again, employers
will not hire graduates unable to do these tasks.
The clinic classroom provides students with a safe
environment in which to practice necessary skills. No
matter how poorly they perform a treatment, how
awkward they are at discussing and selling product, or
how angry a guest gets at them, students cannot be
fired or terminated in the clinic classroom. And
instructors are there to help students learn from and
correct their mistakes, including ensuring the students
do not endanger the public (or themselves) by failing to
properly sanitize a workstation. These conditions are
the opposite of a working salon, where cosmetologists
work with no supervision and can be terminated for
any of those performance problems.
Given these non-employment conditions, clinic
classrooms are not set up to be profitable. See, e.g.,
Ortega v. Denver Inst. LLC, 14-cv-1351, 2015 WL
4576976, at *4 (D. Colo. July 30, 2015) (“[T]he profit
and loss statement ‘associated only with the service
revenue on the clinic floor’ indicates a net operating
loss of nearly $450,000.”); Gerard v. John Paul Mitchell
Systems, 14-cv-4999, 2016 WL 4479987, at *4, 7 (C.D.
Cal. Aug. 22, 2016) (“The fees generated from clinic
classroom services and product sales added to

13
Defendants’ revenue totals, and the schools were
profitable. But the bulk of revenue came from tuition
and fees. . . . The clinic classrooms exist solely for the
students . . . .”); see also Jochim v. Jean Madeline Educ.
Ctr. of Cosmetology, Inc., 98 F.Supp.3d 750, 758 (E.D.
PA. 2015) (“Jean Madeline asserts that its main
business is the School itself and that the clinic does not
generate revenue.”). The reason is self-evident: a
professional salon could not stay in business under the
conditions of the clinic classrooms. No business could
operate where employees cannot be terminated for
taking too long for a service or performing a skill badly,
while charging de minimis prices, paying exorbitant
rents on very large buildings in high-traffic, easily
accessible areas to attract students, and displaying
signs and advertisements that its “employees” were not
licensed nor qualified. And the meager prices charged
to guests are meant to replicate the demands and
pressures of working on paying members of the public
(as opposed to volunteers or family/friends, who are
typically more forgiving and patient). See, e.g.,
Benjamin v. B&H Educ., Inc., 13-cv-4993, 2015 WL
6164891, at *3 (N.D. Cal. Oct. 16, 2015) (“Working on
paying customers has obvious educational value in
preparing students for careers in which they will, in
fact, be working on other paying customers.”); Ortega,
2015 WL 4576976 at *16 (school charged guests “to
ensure that the guests attach a level of reasonable
value to the services provided”).
Presented with these facts, every court that has
previously conducted the primary beneficiary analysis
in this context has agreed students benefit immensely
from the experiential learning in clinic classrooms. See,

14
e.g., Jochim, 98 F.Supp.3d at 758 (school provides
“realistic clinic in which students can practice
treatments and hone customer service skills, retail
skills, and sanitary practices as [state] law requires”);
Ortega, 2015 WL 4576976 at *14–15 (students
benefitted from practicing services, sanitation skills,
and retail recommendations); Hollins v. Regency Corp.,
144 F.Supp.3d 990, 999–100 (N.D. Ill. 2015) (similar);
Benjamin, 2015 WL 6164891 at *3 (similar); Atkins v.
Capri Training Ctr., Inc., 2:13-cv-6820, 2014 WL
4930906, at *9 (D.N.J. Oct. 1, 2014) (“[C]linical
program . . . afford[ed] students the chance to gain the
experience and skills they need[] to succeed after
graduation.”). These decisions have uniformly
recognized that clinic classrooms permit students to
practice their skills and learn from their mistakes
before those mistakes could cost them a job or endanger
the health of a customer. The clinic classrooms are not
a business model for profiting on unpaid labor. Rather,
the clinic classrooms are run at a financial loss for the
benefit of the students as part of their education.
The Sixth Circuit’s decision breaks from this
consistent line of cases and takes a different tact that
makes no sense in the academic context. The Sixth
Circuit’s application of its own rule highlights the
problems in trying to separate a challenged task from
its broader educational context. While the Sixth Circuit
instructed that the employment analysis should not
“consider benefits that come from a different part of the
broader relationship that is not connected to the work
at issue,” 982 F.3d at 1017, the Sixth Circuit did
precisely that when it concluded that “Douglas J does
make a profit from the salons [because of] tuition paid

15
by students,” id. at 1010. The Sixth Circuit looked at
the entire economic relationship to determine the clinic
classroom was “profitable,” but had a far narrower
focus when determining the educational benefit of the
task in question. That problem does not exist under the
primary beneficiary test espoused by the Second,
Seventh, and Ninth Circuits, which looks to the
economic reality of the relationship as a whole to
determine who is the primary beneficiary of the
relationship. See Velarde v. GW GJ, Inc., 914 F.3d 779,
788 (2d Cir. 2019) (“Once again evaluating the totality
of the circumstances, then we reiterate our conclusion
that [plaintiff] was the primary beneficiary of his
relationship with the [school].”); Hollins v. Regency
Corp., 867 F.3d 830, 836–37 (7th Cir. 2017) (analyzing
curriculum requirements to conclude “incidental tasks
to which Hollins points are not enough to tip the
balance over to the ‘employee’ side of the line”);
Benjamin v. B&H Educ., Inc., 877 F.3d 1139, 1147–48
(9th Cir. 2017) (similar); accord Nesbitt v. FCNH, Inc.,
908 F.3d 643, 646–47 (10th Cir. 2018) (to determine if
massage therapy students were employees, court
examined “totality of the circumstances” to determine
“the economic reality of the situation”). The Court
should grant the petition to confirm the proper analysis
for assessing whether an employment relationship
exists in this highly regulated, educational
environment.

16
II.

The Sixth Circuit Departed from this
Court’s Longstanding Mandate that Courts
Should Defer to a School’s Academic
Decisions.

The Court should grant certiorari in this case to
address the Sixth Circuit’s mistaken choice to
substitute the judgment of the judiciary for the
judgment of educators on purely academic issues. This
Court has long instructed that courts are unsuited to
“evaluate the substance of the multitude of academic
decisions that are made daily by faculty members of
public educational institutions—decisions that require
‘an expert evaluation of cumulative information and
[are] not readily adapted to the procedural tools of
judicial or administrative decisionmaking.’” Regents of
Univ. of Mich. v. Ewing, 474 U.S. 214, 226 (1985)
(quoting Board of Curators, Univ. of Mo. v. Horowitz,
435 U.S. 78, 89–90 (1978)). Courts should only overturn
academic decisions if they are “such a substantial
departure from accepted academic norms as to
demonstrate that the faculty did not exercise
professional judgment.” Id. at 227.
Indeed, the Sixth Circuit has itself instructed that
“in an academic context[,] . . . judicial intervention in
any form should be undertaken only with the greatest
reluctance.” Doherty v. S. Coll. of Optometry, 862 F.2d
570, 576–77 (6th Cir. 1988). “[J]udicial deference to
educators in their curriculum decisions is no less
applicable in a clinical setting because evaluation in a
clinical course is no less an ‘academic’ judgment . . . .”
Id. (internal quotation marks and citation omitted).
Courts have followed that guidance closely. See, e.g.,

17
Ward v. Members of Bd. Control of E. Mich. Univ., 700
F.Supp.2d 803, 814 (E.D. Mich. 2010) (“[C]ourts have
traditionally given public colleges and graduate schools
wide latitude ‘to create curricula that fit schools’
understandings of their educational missions.’”)
(quoting Kissinger v. Bd. of Trustees of Ohio State
Univ., Coll. of Vet. Med., 5 F.3d 177, 181 (6th Cir.
1993)); Mootoor v. E. Ky. Univ., 5:18-cv-645, 2020 WL
5633847, at *8 (E.D. Ky. Sept. 20, 2020), appeal
docketed, No. 20-6166 (6th Cir. Oct. 13, 2020) (“As the
Sixth Circuit has held, ‘the federal judiciary is ill
equipped to evaluate the proper emphasis and content
of a school’s curriculum.’”) (quoting Kaltenberger v.
Ohio Coll. of Podiatric Med., 162 F.3d 432, 435 (6th
Cir. 1998)).
Inexplicably, the Sixth Circuit’s new test rejects this
deference without analysis. Under that test, courts
must now analyze on a task-by-task basis whether each
task “provide[s] a benefit to students that exceeds the
benefit of free labor received by the school.” Eberline,
982 F.3d at 1017. Thus, courts are now required to
wade into a school’s curriculum choices to determine
whether every aspect of the course—taken in relative
isolation—provides educational value to the student.
This is precisely the situation that courts should avoid.
Contrary to the Sixth Circuit’s approach, courts
should defer to cosmetology schools about how best to
teach the required subjects within the regulatory
framework. Cosmetology schools are experts in the
subject matter. They are run by cosmetologists with
firsthand knowledge of the practice. Instructors have
an in-depth understanding of their state’s regulations

18
and topics tested on the licensure examination, and
prepare students accordingly. And cosmetology schools
are guided by advisory boards consisting of local salon
owners, licensed cosmetologists, and the school’s own
graduates to receive valuable feedback on the success
and failures of recent graduates, as well as guidance on
ways to improve teaching methods/practices (e.g.,
focusing on new hair trends, developments in
methodology, and economic challenges to salons). As a
result, they actively adapt their instruction
methodology to meet the demands and expectations of
local employers. Lawyers and judges have no such
insight into the cosmetology profession.
The Court should accept this appeal to correct the
Sixth Circuit’s departure from longstanding
jurisprudence requiring deference to the academic
decision-making by educators.
III.

The Sixth Circuit’s Unworkable Standard
Will Impact All Schools, Not Just
Cosmetology Schools.

By splitting from the Second, Seventh, and Ninth
Circuits, the Sixth Circuit has made all schools prime
targets for class-action lawsuits that isolate cherrypicked tasks to allege a per-event employment
relationship. This unpredictable and unworkable
employment analysis has never been the law. If
permitted to take hold, the decision will significantly
impact schools.
The Sixth Circuit’s analysis is unworkable within
the higher education context. A clinic classroom cannot
(does not) exist outside of the education setting. It is a

19
practical impossibility to separate discrete tasks out of
this broader educational relationship. Thus, attempts
to parse out these tasks are necessarily based on
subjective factors, such as whether the student knew
how to do the task beforehand and how many times it
takes each individual student to develop mastery of a
subject. The results are necessarily inconsistent.
Sweeping up in the clinic classroom may be
employment for one student or at one time, but not for
the next student or the same student at a different
time.
The consequences of litigation risks from similar
lawsuits are already significant. Such cases are being
brought against cosmetology schools as federal and
state class-actions, seeking damages for many years
back for thousands of former students. Accordingly, the
financial risk for litigation costs and possible damages
exposure could easily reach into the tens of millions of
dollars. Some schools may be forced to close from the
cost of defense alone.
In addition, the litigation risk is likely to force some
cosmetology schools to severely limit experiential
learning opportunities for students. Schools will be
forced to eliminate any task that could potentially be
construed as employment, such as all of the tasks
alleged in the lawsuit here (even though the schools
disagree any of them constitute employment). As such,
students will not have the practical skills demanded by
employers. They will be far less prepared for the handson portions of the licensure examination, particularly
as it relates to sanitation. And their lack of practice
will be more of a health risk to the public. In short, the

20
clinic classrooms will lose their ability to mimic a salon
and prepare students for licensure and employment.
The impact of the Sixth Circuit’s analysis is not
limited to cosmetology schools, vocational schools, or
for-profit schools. Its potential application is much
broader. Regardless of tax status, ownership structure,
or subject expertise, all schools, colleges, and
universities operate as businesses within the context of
the FLSA.5 Accord 29 C.F.R. Part 541; Alexander v.
Univ. of Mich.-Flint, 509 F.Supp. 627, 628 (E.D. Mich.
1980) (applying FLSA to public university). The Sixth
Circuit’s new rule threatens to subject all institutions
of higher education offering training for licensed
professions—community colleges, private trade schools,
vocational training programs, non-profit traditional
colleges, graduate schools—to unpredictable litigation,
conflicting results, and devastating class-action
liability.
In Michigan, for example, LARA implements and
enforces regulations governing approximately 50
different licensed professions. See, e.g., Mich. Comp.
Laws §§ 333.16101–.18838 (regulations governing
training and licensure for 25 healthcare professions);
id. at §§ 339.101–.2677 (regulations governing training
and licensure for occupations). LARA’s oversight
includes setting curriculum requirements for educators
preparing students for those professions. The vast
majority of these licensure programs require schools to
5

See, e.g., Dep’t of Labor, Fact Sheet #17S: Higher Education
Institutions and Overtime Pay Under the FLSA, available at
https://www.dol.gov/sites/dolgov/files/WHD/legacy/files/whdfs17s
.pdf (last accessed April 14, 2021).

21
provide students with experiential learning in their
chosen profession (just like cosmetology).6
In light of the circuit split created by the Sixth
Circuit, the quality and nature of these experiential
learning environments—both from the school and the
volunteer clinics working with the schools—are now in
jeopardy.
The danger is real for non-professional programs as
well. Traditional four-year liberal arts degree programs
often include job-shadowing or other career/networking
opportunities. The Sixth Circuit’s new ruling exposes
companies offering experiential opportunities to
students to substantial liability based on tasks that
may or may not qualify as employment. Worse yet,
these tasks may change from being employment to not
being employment and back again based on
unknowable factors, such as the student’s prior
experience or unforeseen disruptions to the learning
environment.
Consider a pre-law undergraduate student who
shadows a state court trial judge for several weeks. The
judge regularly asks the student to make two copies of
6

Accord Mich. Admin. Code. R. 339.15202 (architecture requires
internship); id. at R. 338.5 (audiologist required supervised clinical
experience); id. at R. 339.6047 (barber requires practical hours); id.
at R. 338.1753 (counseling requires internship hours); id. at R.
338.722 (massage therapy requires clinical hours); id. at R.
338.10306–.10309 (nursing [LPN, RN] requires clinical hours and
simulation hours); id. at R. 338.1222 (occupational therapy
requires practice education hours via reference to WFOT
standards); id. at R. 338.4978 (veterinary technician requires
practical experience hours via reference to AVMA standards).

22
briefs using the photocopier—one copy for the judge
and one for the student. The judge intends to discuss
the briefs with the student. Under the Sixth Circuit’s
analysis, the student is potentially an employee when
she photocopies a brief. But that result could change
based on innumerable factors, such as if the student
just photocopies a brief for her own use, if the student
has no prior knowledge of how to use a photocopier and
the judge teaches her, if the student is asked to
photocopy and never discusses the case with the judge,
or if photocopying is part of a judicial administrative
assistant’s job description. Under the Sixth Circuit’s
analysis, the analysis changes with each shift in facts,
because each of those facts affects the educational
value to the student and the benefit to the alleged
“employer.”
The outcome of this type of piece-by-piece analysis
of each action requested of a student potentially
forecloses necessary and valuable experiential learning.
Businesses will simply avoid the risk by not taking
interns, externs, or clinical sites. That is not a viable
outcome for anyone.

23
CONCLUSION
For the reasons set forth above, the Court should
grant the Petition for Writ of Certiorari.
Respectfully submitted,
EDWARD CRAMP
BRYCE YOUNG
DUANE MORRIS LLP
750 B Street,
Suite 2900
San Diego, CA 92101-4681

ROBERT M. PALUMBOS
Counsel of Record
DUANE MORRIS LLP
30 South 17th Street
Philadelphia, PA 19103-4196
(215) 979-1111
rmpalumbos@duanemorris.com

Counsel of Amicus Curiae

